The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
Chairman




              UNITED STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, DC 20436

                                          May 31, 2013




Message from the Chairman

In accordance with the Inspector General Act of 1978, as amended, 5 U.S.C. App. 3 (the IG Act),
the U.S. International Trade Commission (USITC or Commission) hereby transmits the
Semiannual Report of the USITC Inspector General for the period October 1, 2012 to March 31,
2013.

The Commission appreciates the work done by the Office of Inspector General in assuring the
effectiveness, efficiency, and integrity of Commission programs and operations. Inspector
General Philip M. Heneghan and his staff continue to provide invaluable service to the
Commission. We look forward to continuing to work with the Inspector General as we address
the issues raised in this report.

The Inspector General’s Semiannual Report identifies the top management and
performance challenges in FY 2012 that require significant attention from the USITC. The
Commission concurs with the critical challenges identified by the Inspector General. We
continue our efforts to address these challenges to ensure that our internal operations are well
managed. The corrective actions that have been both initiated and completed address many of the
challenges identified by the Inspector General.

The actions we are taking with respect to the Inspector General’s identified broad management
challenges on (1) internal control, (2) financial management, and (3) use of information
technology to improve staff productivity, are summarized in Part I of this message. Part II of this
message addresses the status of specific corrective actions as they relate to the Inspector
General’s recommendations of individual audits.



                                                 1
   I.      Addressing Management and Performance Challenges

           A. Internal Control

The Commission recognizes that internal control management touches all areas of the
organization and affects the administrative, programmatic, information technology, security,
compliance, and financial controls at the entity as well as office-level. Due to the complexity of
the actions that need to be taken and the limited availability of resources, the Commission
remains realistic regarding the timeline to complete remediation actions related to this
management challenge. The multi-year effort to transform the management structure and culture
of the Commission, which is underway, has the support of the Chairman, the Commissioners,
and the members of the agency’s Senior Executive Service (SES).

During the past few years the Commission focused much of its efforts on implementing financial
controls, as evidenced by the recent unqualified audit opinion. The Commission is now
expanding its efforts to establish and implement an effective internal control system that
addresses agency-wide processes. To help facilitate this initiative, the agency hired an
experienced Internal Control Program Manager, who works with office directors to review,
refine and implement stronger systems of internal control. The Commission will also expand its
business process mapping efforts througought the agency in order to continue to establish,
implement, and monitor strong and effective internal controls.

           B. Financial Management

The Commission received an unqualified audit opinion on the FY 2012 and FY 2011 financial
statements, with a significant reduction in the number of control deficiencies identified in FY
2012 as compared to FY 2011. During the past year the Commission has undergone a
transformation in how it accounts for and reports on its financial management operations. This
transformation accelerated during FY 2012 with the establishment and staffing of the Office of
the Chief Financial Officer (CFO). The unqualified opinion in FY 2012 not only represents
continued improvement in the Commission’s financial management transformation, but is also a
testament to the agency’s sustained efforts in improving financial management across the
Commission.

The Commission has been taking steps to transform its approach to financial management from an
accounting exercise to a process that provides transparency and accountability in the
formulation, execution, performance, and management of agency budgetary resources. The CFO
is making progress in providing agency managers with access to timely, reliable, and practical
information concerning the financial affairs of the agency and will continue to expand the
reporting portfolio and to work with managers on using this information effectively.

           C. Using Information Technology to Improve Staff Productivity

Information technology is integral to the Commission’s operations and the productivity of its
staff. The Commission recognizes that more needs to be done in this area to support and improve
staff productivity, and is committed to doing so.

                                                2
Staff frequently perform Commission work while off premises, and should be able to do so at all
times and especially in the event that the primary data center becomes unavailable. During this
reporting period, under the leadership of the Chief Information Officer (CIO), the Commission
made operational an alternate/disaster recovery data center and implemented remote access
improvements. The Commission recently tested and confirmed the operation of this data
recovery center and is now in the process of expanding its capabilities.

Through the Office of the CIO, the Commission is investing significant effort into upgrading the
Commission’s aged technology platform that supports many of the services delivered to both the
public and ITC employees. During this past year, the agency transitioned to open source database
technologies, which significantly reduced costs and provided efficiency gains. Additional
upgrade work continues on the replacement of obsolete network assets and technology. The
Commission recognizes that it must continue to work to ensure that its IT resources are available
to staff in a way that enhances their productivity, and the Commission intends to expand the
feedback it is obtaining from staff in order to make the appropriate improvements.

As the Commission’s operational units continue to document and define their business activities,
this knowledge will enable the Commission to plan and deploy technology that will increase
these units’ efficiency and effectiveness. For example, the Commission is in the process of
significantly automating the management of the Harmonized Tariff Schedule so that it can be
updated more efficiently and so that it can minimize the risk of human error. Also, the
Commission has developed a sophisticated database to assess trends and facilitate its resource
planning for its 337 investigations. As additional business processes are evaluated, the
Commission will continue to evaluate its commitment of resources towards applying technology
to enhance productivity.

The now-operational alternate/disaster recovery data center addresses a number of the
deficiencies cited in the Annual Inspector General Cyberscope Fiscal Year 2012 submission. The
Commission will make progress on the remaining items by prioritizing and assigning the
appropriate resources necessary to address remaining deficiencies.


II. Actions on Recommendations

           A. Actions on Inspector General Recommendations Made in this Reporting Period

During this October 1, 2012 to March 31, 2013 semiannual reporting period, the Inspector
General issued four new reports that included a total of 22 new recommendations. With regard to
the first three reports issued in this reporting period, the Commission issued management
decisions on all 16 of its associated recommendations in a timely manner. With regard to the
fourth report issued in this period, the Commission also issued management decisions in a timely
manner, but these were only issued after the conclusion of the reporting period since the original
report was issued in March of 2012. With regard to corrective action on audits from previous
reporting periods, the Commission completed final action on the management decisions
associated with four such reports, and intends to address and resolve all of its other outstanding
management decisions.

                                                3
B. Actions on Recommendations Made from Prior Periods

   (1) Evaluation of the Commission’s Fiscal Year 2005 Information Security
   Program and Practices Audit Report (OIG-AR-04-05). Management has fully
   implemented its decisions as of April 2013.

   (2) Report on Compliance with Laws and Regulations for 2010 (OIG-AR-11-04).
   The Report notes that the Commission has not completed final action on a 2010
   recommendation to bring its transit program into compliance with applicable laws
   and regulations. The Commission requested the U.S. Government Accountability
   Office (GAO) to review its transit program. GAO’s decision, rendered on August
   3, 2012, identified other factors the Commission should consider in analyzing its
   transit program, which the Commission will do by July 2013.

   (3) Inspection of Physical Security (OIG-SP-11-12 ). Lower staffing levels in the
   Office of Security Services due in part to reduced hiring in light of budget
   uncertainties resulted in a delay in implementation of certain management
   decisions associated with the findings in this IG audit. Nevertheless the
   outstanding audit follow-up requirements are being addressed. For example, the
   publication of the Occupant Emergency Plan and associated training modules
   will be completed this fiscal year, and the upgrade for the physical access controls
   will begin in the current reporting period.

   (4) Report on Internal Control for 2011 (OIG-AR-12-03). To implement the
   recommendations in the audit, the Commission began a process of creating
   electronic files for its open obligations and updating its financial management
   manual. The creation of an open obligation file was a large undertaking that
   required contractor support to assist with the definition and design of metadata for
   an internal website to house obligating documents and their associated invoices.
   The Commission plans to complete this during the current reporting period.
   Moreover, it plans to replace the accounting manual with a financial management
   manual that will be published this fiscal year.

   (5) Audit of the Title VII Preliminary Investigation Process (OIG-AR-12-06).
   Management had requested an extended period of time to fully address the
   recommendations put forth in this audit, as it was determined that the additional
   time would allow staff to make better informed decisions about how to effectively
   manage the flow of information the Commission receives for its Title VII
   investigations. Management has fully implemented its decisions as of May 2013.

   (6) Evaluation of Employee Outprocessing Program (OIG-ER-12-07). During the
   reporting period, the Commission continued to work on completing actions
   associated with the IG’s report. Management extended the deadlines on several of
   these management decisions in order to design and implement a comprehensive
   electronic system for out-processing, details, and transfers, and to design and
   implement training associated with the new system. System design and process

                                    4
               development have been completed, and the training and implementation phases
               are scheduled to be completed during the current reporting period.

The statistical tables, required under the IG Act, are included as Appendix A of this report.


           C. Actions on External Reviews

During the reporting period, the Commission completed final actions on all outstanding
management decisions stemming from the Office of Personnel Management (OPM) review of
the Commission’s human capital management. To complete these final actions, the Commission
issued several human capital management documents, including a strategic human capital plan, a
training plan, a human capital accountability plan, a succession management plan, a diversity and
inclusion strategic plan, and a review of the Commission awards program. During the reporting
period OPM began a new human capital management evaluation. The Commission is currently
awaiting the OPM report and findings associated with that evaluation.




Irving A. Williamson
Chairman




                                                 5
     UNITED STATES INTERNATIONAL TRADE COMMISSION

                                WASHINGTON, DC 20436


April 30, 2013                                             OIG-LL-005

Commissioners:

Attached is the Semiannual Report summarizing the activities of the Office of Inspector
General (OIG) for the period October 1, 2012, to March 31, 2013.

During this period, we issued eight reports and made 22 recommendations to promote the
efficiency, effectiveness, and integrity of the Commission’s operations.

I would like to thank you for your commitment to strengthening the operations of the
Commission and supporting the work of my office. During this reporting period, the
Commission completed final action on 26 Inspector General recommendations and 10
recommendations made by external oversight organizations.




Philip M. Heneghan
Inspector General
                    U.S. International Trade Commission
                                 Inspector General Semiannual Report


                                          TABLE OF CONTENTS


Office of Inspector General .............................................................................................. 1

Semiannual Report Requirements .................................................................................. 1

Top Management and Performance Challenges ............................................................ 2
  1. Internal Control .......................................................................................................... 2
  2. Financial Management ............................................................................................... 3
  3. Using Information Technology to Improve Staff Productivity.................................. 4

Inspector General Reports Issued During this Period .................................................. 4
  Audit of Citrix Remote Access, OIG-AR-13-01 ............................................................ 5
  Audit of 2012 Financial Statement, OIG-AR-13-03....................................................... 6
  Report on Internal Control for Fiscal Year 2012, OIG-AR-13-04 ................................. 6
  Report on Compliance with Laws and Regulations for 2012, OIG-AR-13-05 .............. 7
  Management Letter for 2012 Financial Statement, OIG-AR-13-06 ............................... 7
  Inspector General Cyberscope Fiscal Year 2012 Submission, OIG-MR-13-07 ............. 7
  Evaluation of the Purchase Card Program, OIG-ER-13-08 ............................................ 8

Significant Recommendations from Prior Periods ........................................................ 9

Hotline and Investigations................................................................................................ 9
 Investigations and Inquiries – Overview ........................................................................ 9
 OIG Hotline Contacts ................................................................................................... 10
 Investigations and Inquiries .......................................................................................... 10

External Reviews Completed During this Period ........................................................ 10

Status of Actions Related to External Reviews Completed During Prior Periods ... 10
  Office of Personnel Management – Human Resources Review ................................... 10

Congressional Activities ................................................................................................. 11

Council on Inspectors General for Integrity and Efficiency Activities ...................... 11

Federal Financial Management Improvement Act Reporting ................................... 12

Peer Review ..................................................................................................................... 12

Tables
  Table 1:       Reporting Requirements Index ...................................................................... iii
  Table 2:       Management and Performance Challenges ..................................................... 2
  Table 3:       Reports by Subject Matter ............................................................................... 5
  Table 4:       Significant Recommendations from Prior Reports ........................................ 13
                                                    i
                               Report Period: October 1, 2012 through March 31, 2013
              U.S. International Trade Commission
                         Inspector General Semiannual Report

 Table 5:   Reports with Questioned or Unsupported Costs............................................ 13
 Table 6:   Reports with Recommendations that Funds be Put to Better Use ................. 14
 Table 7:   Reports With Final Action Completed During This Reporting Period ......... 15
 Table 8:   Status of Reports Issued Without Final Action ............................................. 16

Appendices
Appendix A: Chairman’s Statistical Tables…………………………………………...A-1




                                                  ii
                       Report Period: October 1, 2012 through March 31, 2013
          U.S. International Trade Commission
                     Inspector General Semiannual Report

                        Table 1: Reporting Requirements Index



                         Reporting Requirements Index

   IG Act                                 Description                       Page
Section 4(a)(2)      Review of Legislation                                  None
                     Description of Significant Problems, Abuses, and
Section 5(a)(1)                                                             2-4
                     Deficiencies
                     Description of Recommendations for Corrective
Section 5(a)(2)      Action with Respect to Significant Problems, Abuses,   4-9
                     and Deficiencies
                     Significant Recommendations From Prior Reports on
Section 5(a)(3)                                                              13
                     Which Corrective Action Has Not Been Completed
                     A Summary of Matters Referred to Prosecuting
Section 5(a)(4)                                                             None
                     Authorities
                     Summary of Instances Where Information or
Section 5(a)(5)                                                             None
                     Assistance was Unreasonably Refused
                     Listing by Subject Matter of each Report Issued
Section 5(a)(6)                                                              2
                     during this Reporting Period
Section 5(a)(7)      Summary of Significant Reports                         4-9
                     Statistical Table showing Questioned and
Section 5(a)(8)                                                              13
                     Unsupported Costs
                     Statistical Table showing Recommendations Where
Section 5(a)(9)                                                              14
                     Funds Could be Put to Better Use
                     Summary of Audit Reports Issued Before the Start of
Section 5(a)(10)     the Reporting Period for Which no Management           None
                     Decision Has Been Made
                     Description of Any Significant Revised Management
Section 5(a)(11)                                                            None
                     Decisions
                     Information Concerning any Significant Management
Section 5(a)(12)
                     Decision with Which the Inspector General is in        None
                     Disagreement
Section 5(a)(13)     Information described under section 5(b) of FFMIA       12
                     Results of Peer Review Completed During This
Section 5(a)(14)                                                             12
                     Period or Date of Last Peer Review
                     List of Any Outstanding Recommendations From
Section 5(a)(15)                                                            None
                     Peer Review
                     List of any Peer Reviews Conducted of Another
Section 5(a)(16)                                                            None
                     Office of Inspector General During this Period




                                            iii
                   Report Period: October 1, 2012 through March 31, 2013
              U.S. International Trade Commission
                        Inspector General Semiannual Report


                          Office of Inspector General
The U.S. International Trade Commission established the Office of Inspector General
pursuant to the 1988 amendments to the Inspector General Act (IG Act). The Inspector
General provides audit, evaluation, inspection, and investigative services covering all
Commission programs and operations. The mission of the Inspector General is to
promote and preserve the effectiveness, efficiency, and integrity of the Commission. The
Office of Inspector General’s activities are planned and conducted based on requirements
of laws and regulations, requests from management officials, allegations received from
Commission personnel and other sources, and the Inspector General’s initiative.




                     Semiannual Report Requirements
The IG Act requires each Inspector General to prepare a report, semiannually, that
summarizes the activities of the office. This Semiannual Report covers the period from
October 1, 2012, through March 31, 2013. The 17 requirements, shown in Table 1, are
specified in the IG Act and must be included in the report. The layout of this Semiannual
Report is described below.

This Semiannual Report starts with a description of the Management and Performance
Challenges Report, OIG-MR-13-02, which identified three management challenges
facing the Commission and the actions management has taken to address these
challenges. It then summarizes the results of the eight reports issued during this period,
describes significant recommendations from prior reports where final action is not
complete, and summarizes the hotline and investigative activities of the Inspector
General. The next section provides a summary of other reviews of the Commission
conducted by external parties; along with the status of recommendations from those
reports. The last sections supply information on other reportable activities such as
congressional activity, participation in the Council on Inspectors General for Integrity
and Efficiency, other compliance activities, and our Peer Review status. Additional
tables at the end of the report detail statistics on Office of Inspector General reports and
recommendations.




                                               1
                         Report: October 1, 2012 through March 31, 2013
              U.S. International Trade Commission
                       Inspector General Semiannual Report


           Top Management and Performance Challenges
The Inspector General is required by statute to identify the most significant management
and performance challenges facing the Commission in the coming year. The Inspector
General provided the Commission with a report (OIG-MR-13-02) on October 15, 2012.
The report identified the challenges based on information learned from audit, evaluation,
and inspection work, a general knowledge of the Commission’s programs and activities,
and input from management regarding challenges facing the agency. The management
and performance challenges identified by the Office of Inspector General include the
three areas identified in Table 2. Following the table is a short discussion of the three
challenges and the efforts the agency has taken to address them.


                      Table 2: Management and Performance Challenges

                    Management and Performance Challenges
           1. Internal Control
           2. Financial Management
           3. Using Information Technology to Improve Staff Productivity



1. Internal Control
The Commission’s management is responsible for establishing and maintaining a system
of internal controls that can ensure effective and efficient operations, reliable financial
reporting, and compliance with laws and regulations. The Commission has had a long-
standing culture of undocumented and informal processes to complete daily tasks.
Documented and consistent processes and procedures are necessary to provide a
reasonable level of assurance that offices are operating in an efficient and effective
manner.

The Commission has taken steps to address this weakness by establishing a business
process mapping team to document the flow of existing business processes. The
Commission established a mapping team and introduced training to help the Commission
document business processes via mapping techniques. The Process Mapping Team has
been working with Commission staff to capture existing business processes to answer
questions such as: (1) what conditions affect a given process? and (2) What design or
deployment aspects could be enhanced? The team has done process maps in eight
different lines of business or services for a total of 153 process maps.



                                              2
                        Report: October 1, 2012 through March 31, 2013
             U.S. International Trade Commission
                       Inspector General Semiannual Report

These process maps will allow the Commission an opportunity to perform an analysis of
its processes to look for areas for improvement by identifying redundant and ineffective
processes, performance gaps, or areas of risk. It also provides the Commission with a
baseline illustrative process that can be used to begin establishing and documenting
formal procedures.

In addition, the Chief Financial Officer hired an Internal Control Program Manager to
establish a comprehensive program to address organizational internal control. Since
coming on board in December 2012, the Internal Control Program Manager has been
working one-on-one with office directors and designated representatives to promote
awareness of internal controls and develop an effective program in support of specific
organizational capabilities, requirements, and limitations.

The Commission is committed to improving and strengthening the internal control
environment. At the same time, the Commission understands a sustained effort over a
long period of time is needed to achieve a mature and effective internal control program.
The Commission will be challenged to manage and drive the cultural changes associated
with the development and implementation of an effective organizational internal control
program.

2. Financial Management

As a result of its disclaimer on the 2009 financial statements the Commission recognized
the importance and necessity of instituting a system of stronger financial controls and has
implemented corrective actions to address financial management deficiencies.

For example, the Commission established a new Office of the Chief Financial Officer,
and has recruited personnel with the appropriate knowledge and technical skills to fill key
financial management positions. The filling of these vacancies has led to improvements
in overall financial management. An important example of this are the recent audits of
the Commission’s financial statements, which received a qualified opinion in 2010, and
unqualified opinions in 2011 and 2012.

The management challenge has been to transform financial management from an
accounting exercise to a process that ensures that managers will have access to timely,
reliable, and practical information that will enable them to make informed decisions. The
Office of the Chief Financial Officer has taken steps to address the financial reporting
challenges by meeting with operational managers to discuss reporting requirements and
developing a reporting tool to provide access to financial reports.

Challenges remain to provide managers with reports to effectively monitor the
expenditure of funds, evaluate program performance, and make informed financial
decisions on the Commission’s programs and operations.


                                              3
                        Report: October 1, 2012 through March 31, 2013
             U.S. International Trade Commission
                       Inspector General Semiannual Report

3. Using Information Technology to Improve Staff Productivity

Knowledge workers require a stable, productive information technology platform to
efficiently and effectively perform their work. Skilled staff are expected to perform their
mission whether they are on or off premises, and the platform supporting their work
should be resilient enough to allow work to continue, even in the absence of the primary
data center.

Significant information technology challenges remain that reduce the efficiency and
effectiveness of Commission staff. Examples of lost productivity include computers that
can take 15 minutes to become operational at boot-up, the multiple and forced reboots
during standard working hours, email outages spanning five days, and continued
undiagnosed performance problems affecting remote access. Systems should be designed
to minimize delays and work-stopping reboots, and to enable the recovery from outages
in minutes or hours instead of days.

To improve productivity, the Commission should prioritize the appropriate skills and
resources in the right areas to ensure that both basic and enhanced services work well and
contribute to a stable, consistent environment to effectively serve its staff regardless of
their location, or the situation at the primary data center.

We also reported separately (through the Chairman) to the Office of Management and
Budget, deficiencies in 7 of 11 information technology program areas evaluated as part of
the annual Inspector General Cyberscope Fiscal Year 2012 submission. One of the areas,
Contingency Planning, was first reported as a deficiency by the Inspector General in
2005. The other six program areas needing improvement are: Continuous Monitoring,
Configuration Management, Identity and Access Management, Incident Response and
Reporting, Risk Management, and Remote Access Management. The Commission faces
many challenges implementing information technology solutions to improve staff
productivity.




       Inspector General Reports Issued During this Period
The Inspector General issued eight reports with a total of 22 recommendations during this
reporting period. The Commission made management decisions on 16 recommendations,
and the Inspector General agreed with all the management decisions. Management
decisions on the remaining six recommendations were not due until after this reporting
period had closed.




                                              4
                        Report: October 1, 2012 through March 31, 2013
                 U.S. International Trade Commission
                           Inspector General Semiannual Report

 The Commission made management decisions on four recommendations issued during
 the last reporting period that were not due until after the last reporting period had closed.
 The Inspector General agreed with all the management decisions.

 A listing of each report issued during this reporting period, by subject matter, is provided
 in Table 3.
                                 Table 3: Reports by Subject Matter

                                   Reports by Subject Matter
  Subject           Report                                            Date           Number of
                                          Report Title
  Matter            Number                                           Issued       Recommendations
                                USITC Management and
Administrative   OIG-MR-13-02                                    10/15/2012                 0
                                Performance Challenges
                                Evaluation of the Purchase
Administrative OIG-ER-13-08                                      03/20/2013                 6
                                Card Program
                                Audit of 2012 Financial
Financial         OIG-AR-13-03                                   11/09/2012                 0
                                Statement
                                Report on Internal Control for
Financial         OIG-AR-13-04                                   11/09/2012                 3
                                FY 2012
                                Report on Compliance with
Financial         OIG-AR-13-05  Laws and Regulations for FY 11/09/2012                      0
                                2012
                                Management Letter for FY
Financial         OIG-ML-13-06                                   11/19/2012                 2
                                2012 Financial Statements
                                Audit of Citrix Remote
IT Security       OIG-AR-13-01                                   10/19/2012                11
                                Access
                                Inspector General FISMA
IT Security       OIG-AR-13-07  Cyberscope FY 2012               11/14/2012                 0
                                Submission
Total Recommendations Issued During This Reporting Period                                  22
NOTE: There were no questioned costs, unsupported costs or funds identified that could be put to better
use in any of these reports.



 The title, key findings, and summary information of each report are provided below.

 Audit of Citrix Remote Access, OIG-AR-13-01

 RESULT: The audit determined that the Commission’s Citrix platform did not provide
 the capabilities necessary for staff to effectively and efficiently perform their work
 remotely.

 We performed an audit of the Commission’s remote access system to determine if it
 allowed staff to work remotely in a productive manner. We reviewed performance
 statistics of the system, login duration, session latency, and other characteristics and
 compared them against other Federal agency implementations. We also interviewed

                                                    5
                            Report: October 1, 2012 through March 31, 2013
              U.S. International Trade Commission
                       Inspector General Semiannual Report

Commission staff to obtain information on the quality of user experience when using
Citrix remotely.

We found that the Commission’s Citrix implementation provided a time-limited web
application that required users to individually launch applications as a separate window.
The system required redundant data entry and unnecessary delays to login, and each
application launch caused additional delay. Standard operations by users resulted in
errors due to Citrix configuration or other infrastructure problems, and the data generated
by the platform provided only partial information that was insufficient to manage the
system. We found that these implementation deficiencies led to a decrease in
productivity for Commission staff working remotely.

The report contained 11 recommendations to improve the productivity of the
Commission’s staff while using the Citrix remote access platform. The Chairman agreed
with the findings and made management decisions to implement the recommendations.

Audit of 2012 Financial Statement, OIG-AR-13-03

RESULT: The audit resulted in an unqualified opinion of the Commission’s 2012
financial statements.

The Inspector General engaged the services of an independent certified public accounting
firm to audit the balance sheet and related statements of net cost, changes in net position,
and budgetary resources for fiscal year 2012. The auditors were able to obtain sufficient
evidence to assert that the Commission’s financial statements for the fiscal year ended
September 30, 2012, present fairly in all material respects the financial position of the
Commission.

Report on Internal Control for Fiscal Year 2012, OIG-AR-13-04

RESULT: The audit identified one material weaknesses and one significant deficiency.

As part of the financial audit, the independent public accounting firm reviewed the
Commission’s internal control over financial reporting. The auditors identified one
material weakness associated with controls over undelivered orders, accounts payable,
and expenditures. They also noted one significant deficiency regarding controls over
financial reporting.

Both of these conditions have been previously identified and reported in financial
statement audit reports since 2009. However, this is an improvement over 2011, when
the auditors identified three material weaknesses and one significant deficiency.




                                              6
                        Report: October 1, 2012 through March 31, 2013
             U.S. International Trade Commission
                       Inspector General Semiannual Report

The report contained three recommendations for the Commission’s management. The
Chairman agreed with the assessment of the identified weaknesses and made
management decisions for all of the recommendations.

Report on Compliance with Laws and Regulations for 2012, OIG-AR-13-05

RESULT: The report did not identify any new instances of noncompliance.

As part of the financial audit, the Inspector General engaged the services of the
independent public accounting firm to audit the Commission’s compliance with certain
laws and regulations. The auditors did not test compliance with all laws and regulations
applicable to the Commission. The testing was limited to provisions of laws and
regulations that would have a direct and material effect on the determination of financial
statement amounts. The results of the testing performed by the audit team did not
identify any new instances of noncompliance.

Management Letter for 2012 Financial Statement, OIG-AR-13-06

RESULT: The Management Letter highlighted operational inefficiencies in the cash
disbursement process and employee payroll process.

As part of the audit of the Commission’s financial statements, the auditors noted
operational inefficiencies in the cash disbursement procedures and the employee payroll
process. The management letter contained two recommendations to improve internal
control for both of the conditions. The Chairman agreed with the deficiencies identified
in the report and made management decisions for the recommendations.

Inspector General Cyberscope Fiscal Year 2012 Submission, OIG-MR-13-07

RESULT: Of the 11 program areas evaluated: 10 were established, seven needed
improvement, and one had not been established.

The Federal Information Security Management Act of 2002 (FISMA), requires the Office
of Inspector General to independently evaluate and report to the Office of Management
and Budget on how the Commission has established and implemented information
security programs. Each year, the Office of Management and Budget requests input on
select programs. For Fiscal Year 2012, the Office of Management and Budget requested
an assessment of agency performance in the following areas:

   •   Continuous Monitoring Management;
   •   Configuration Management;
   •   Identity and Access Management;


                                              7
                        Report: October 1, 2012 through March 31, 2013
             U.S. International Trade Commission
                       Inspector General Semiannual Report


   •   Incident Response and Reporting;
   •   Risk Management;
   •   Security Training;
   •   Plan of Action and Milestones;
   •   Remote Access Management;
   •   Contingency Planning;
   •   Contractor Systems; and
   •   Security Capital Planning.

In our assessment, we reported that the Commission has established and maintained four
programs generally consistent with the National Institute of Science and Technology and
the Office of Management and Budget’s Federal Information Security Management
requirements in the following areas: Security Training; Plan of Action and Milestones;
Contractor Systems, and Security Capital Planning. In six areas we reported that the
Commission needs to make significant improvements: Continuous Monitoring,
Configuration Management, Identity and Access Management, Incident Response and
Reporting, Risk Management, and Remote Access Management.

We also reported that the Commission did not yet have a program to perform
Contingency Planning. The Commission’s lack of Contingency Planning has been
reported since 2005, and it is making progress to meet the requirement by the end of the
fiscal year.

While the results of our assessment identified deficiencies in 7 of the 11 program areas,
no recommendations were issued because this report is provided to the Office of
Management and Budget, not the Commission.

Evaluation of the Purchase Card Program, OIG-ER-13-08

RESULT: The evaluation determined that the Commission’s purchase card program is
effective.

We performed a review of the purchase card program to determine if the Commission
had achieved the government-wide goals to reduce administrative costs and time for
purchasing and paying for goods and services while ensuring effective controls were in
place to mitigate the risk of fraud, misuse, and delinquency.

We found that the Commission’s purchase card program reduced administrative costs and
time for purchasing small, low-cost items under the micro-purchase threshold. The
Commission has implemented segregation of duties to mitigate the risk of fraud and
misuse, and cardholders maintained documentation to support the items and services
acquired. We also found that the Commission’s policies were consistent with guidance

                                              8
                        Report: October 1, 2012 through March 31, 2013
              U.S. International Trade Commission
                       Inspector General Semiannual Report

provided in the Office of Management and Budget Circular A-123, Appendix B,
Improvement the Management of Government Card Charge Programs.

While we found the Commission’s purchase card program to be effective, two areas for
improvement were identified: (1) increasing monitoring and oversight of the purchase
card program and (2) properly classifying purchase card transactions.

The Inspector General made six recommendations that addressed the areas for
improvement. The Chairman agreed with the findings in the report and was in the
process of developing management decisions to address the recommendations at the time
the reporting period closed.




          Significant Recommendations from Prior Periods
The Inspector General identified one recommendation from prior periods as significant.

The recommendation, associated with having an alternate processing facility, has been
repeatedly identified and reported as significant by the Inspector General. A listing that
identifies this recommendation along with the report number is provided in Table 4.



                           Hotline and Investigations

Investigations and Inquiries – Overview

In accordance with professional standards and guidelines, the Inspector General conducts
investigations and inquiries of criminal, civil, and administrative wrongdoing involving
Commission programs, operations, and personnel. Investigations may involve possible
violations of regulations regarding employee responsibilities and conduct, Federal
criminal law, and other statutes and regulations pertaining to the activities of the
Commission.

The Inspector General reviews and analyzes all complaints received to determine the
appropriate course of action. In instances where it is determined that something less than
a full investigation is appropriate, the Inspector General may conduct a preliminary
inquiry into the allegation. If the information obtained during the inquiry indicates that a
full investigation is warranted, the Inspector General will commence an investigation of
the allegation.



                                               9
                         Report: October 1, 2012 through March 31, 2013
             U.S. International Trade Commission
                       Inspector General Semiannual Report

OIG Hotline Contacts

The OIG maintains a Hotline for reporting information about suspected waste, fraud,
abuse, or mismanagement involving Commission programs or operations. Information
may be provided by telephone, fax, email, mail, or through a web-based form. Upon
request, a provider’s identity will be kept confidential. Reports may also be made
anonymously.

We receive complaints from employees, contractors, and the public that involve the
Commission’s areas of responsibility. We examine these complaints to determine
whether there is any indication of Commission wrongdoing or misconduct. If the
complaint does not relate to the USITC, we refer the complaint to the appropriate agency
for response. If the complaint does not have merit, we close the matter.

The OIG has worked to increase awareness of the Hotline throughout the Commission by
creating a series of Hotline posters and holding OIG Outreach sessions with Commission
offices.

Investigations and Inquiries

The Inspector General did not have any investigation or inquiry activity to report during
this reporting period.




          External Reviews Completed During this Period
The Commission did not have any external reviews completed during this reporting
period.




    Status of Actions Related to External Reviews Completed
                      During Prior Periods
Office of Personnel Management – Human Resources Review

The Office of Personnel Management completed an external review of the Commission’s
human resource program on August 26, 2009. The purpose of the review was to evaluate
the human capital program at the Commission. This evaluation resulted in 83
recommendations made to the Commission to ensure compliance with laws and to
strengthen the management and administration of the Commission’s human capital

                                             10
                        Report: October 1, 2012 through March 31, 2013
             U.S. International Trade Commission
                       Inspector General Semiannual Report

program. The Commission made management decisions to implement all of the
recommendations. The Commission had completed final action on 73 recommendations
in prior reporting periods. The Commission completed final action on the remaining 10
management decisions during this reporting period.




                           Congressional Activities
The Inspector General responded to two congressional inquiries this reporting period.
The first inquiry was from the Chairman and Ranking Member of the House Committee
on Finance, and the Ranking Member of the Senate Committee on Oversight and
Government Reform. They were seeking information from the Inspector General
community on high-priority recommendations for reducing waste and increasing
efficiency.

The second request was received from four co-chairs of the Bicameral Task Force on
Climate Change. The task force was seeking information on the Commission’s efforts to
address climate change.

The Inspector General also transmitted a report that affirmed the Commission’s
compliance with the Improper Payments Elimination and Recovery Act. The Inspector
General’s determination was submitted to the Senate Committee on Homeland Security
and Governmental Affairs, the House Committee on Oversight and Governmental
Reform, the Comptroller General, and the Controller of the Office of Management and
Budget’s Office of Federal Financial Management.




   Council on Inspectors General for Integrity and Efficiency
                          Activities
The Inspector General has actively participated in meetings and supported the efforts of
the Council on Inspectors General for Integrity and Efficiency (CIGIE).

The Office of the Inspector General staff have volunteered to serve as members on
various working groups and committees that address cross-cutting issues such as,
knowledge management, cloud computing, investigations, cyber security, new media,
small agencies concerns, and legislative issues.




                                             11
                        Report: October 1, 2012 through March 31, 2013
             U.S. International Trade Commission
                      Inspector General Semiannual Report


 Federal Financial Management Improvement Act Reporting
The IG Act and the Federal Financial Management Improvement Act of 1996 (FFMIA)
require the Inspectors General of certain agencies to report “instances and reasons” when
the agency has not met intermediate target dates established in a remediation plan to
bring the agency’s financial management system into substantial compliance with the
FFMIA. The Commission is not subject to the FFMIA; however, it voluntarily seeks to
comply with most of its requirements. During this reporting period, there were no events
giving rise to a duty to report under FFMIA.



                                     Peer Review
During this reporting period, a peer review by the Farm Credit Administration’s Office of
Inspector General was conducted on our audit operations. The final report, dated January
16, 2013, determined that the system of quality control for conducting audits had been
suitably designed and implemented; and received a peer review rating of pass. All
recommendations from the peer review were implemented during this reporting period.
The report is posted on our web site.

The peer review schedule is set by the CIGIE; the next peer review of my office will be
conducted in two years. We are scheduled to perform a peer review of another Inspector
General’s audit operation at the end of this fiscal year.




                                             12
                        Report: October 1, 2012 through March 31, 2013
                U.S. International Trade Commission
                          Inspector General Semiannual Report


Table 4: Prior Significant Recommendations Where Corrective Action Has Not Been Completed


                        Prior Significant Recommendations
                  Where Corrective Action Has Not Been Completed
    Report Number                                       Recommendation

                         With respect to each mission-critical application and general support
                         system, determine if an alternate processing facility is necessary and
    OIG-AR-04-05         identify the respective facility. At this alternate facility, contingency
                         plans should be tested and arrangements made for its use in the event of a
                         major interruption or disaster.


                      Table 5: Reports with Questions and Unsupported Costs

                   Reports with Questioned and Unsupported Costs
                                   Section 5(a)8
                                               Number of          Questioned          Unsupported
              Description
                                                Reports             Costs                Costs
Reports for which no management
decision has been made by the
                                                        11               $0                  $0
commencement of the reporting
period.
Reports issued during the reporting
                                                        8                $0                  $0
period.
                             Subtotals                  9                $0                  $0
Reports for which a management
decision was made during the                            8                $0                  $0
reporting period.
    • Dollar value of disallowed
                                                                         $0                  $0
        costs.
    • Dollar value of allowed costs.                                     $0                  $0
Reports for which no management
decision has been made by the end of                    12               $0                  $0
the reporting period.
                             Subtotals                  9                $0                  $0

1
  Management decisions were received in response to the TRAO report, OIG-ER-12-11, which was issued
at the end of the last reporting period and management decisions were not due until after the reporting
period had closed.
2
  The purchase card report, OIG-ER-13-08, was issued during the month of March and management
decisions were not due until after this reporting period had closed.

                                                   13
                            Report: October 1, 2012 through March 31, 2013
                U.S. International Trade Commission
                          Inspector General Semiannual Report

              Table 6: Reports w/ Recommendations that Funds be Put to Better Use



         Reports with Recommendations that Funds be Put to Better Use
                               Section 5(a)9
                                                                 Number of          Funds Put to
                         Description
                                                                  Reports            Better Use
    Reports for which no management decision has been
                                                                         13                $0
    made by the commencement of the reporting period.
    Reports issued during the reporting period.                          8                 $0
                                                Subtotals                9                 $0
    Reports for which a management decision was made
                                                                         8
    during the reporting period.
        • Dollar value of recommendations agreed to by
                                                                                           $0
            management.
        • Dollar value of recommendations not agreed
                                                                                           $0
            to by management.
    Reports for which no management decision has been
                                                                         14                $0
    made by the end of the reporting period.
                                                Subtotals                9                 $0




3
  Management decisions were received in response to the TRAO report, OIG-ER-12-11, which was issued
at the end of the last reporting period and management decisions were not due until after the reporting
period had closed.
4
  The purchase card report, OIG-ER-13-08, was issued during the month of March and management
decisions were not due until after this reporting period had closed.

                                                   14
                            Report: October 1, 2012 through March 31, 2013
              U.S. International Trade Commission
                          Inspector General Semiannual Report

          Table 7: Reports With Final Action Completed During this Reporting Period


                          Reports With Final Action Completed
                             During this Reporting Period
                           Reports Issued This Reporting Period
                                                              Final Action     Final Action
                                     # of        Mgt.
           Report Title                                       Complete in     Complete This
                                     Recs.     Decisions
                                                              Prior Periods       Period
  USITC Management and
1                                       0            0               0                0
  Performance Challenges
  Audit of 2012 Financial
2                                       0            0               0                0
  Statement
  Report on Compliance with
3 Laws and Regulations for FY           0            0               0                0
  2012
  Inspector General FISMA
4 Cyberscope FY 2012                    0            0               0                0
  Submission
                          Totals        0            0               0                0
                                   Prior Reporting Periods
                                                              Final Action     Final Action
                                     # of        Mgt.
           Report Title                                       Complete in     Complete This
                                     Recs.     Decisions
                                                              Prior Periods       Period
  Audit of Account
1                                       8            8               6                2
  Management, OIG-AR-11-11
  Audit of Continuous
2                                       4            4               3                1
  Monitoring, OIG-AR-11-15
  Management Letter for FY
3 2011 Financial Statement              3            3               2                1
  Audit, OIG-ML-12-05
  Evaluation of TRAO, OIG-ER-
4                                       3            3               0                3
  12-11
                         Totals        18            18             11                7




                                                15
                           Report: October 1, 2012 through March 31, 2013
                U.S. International Trade Commission
                            Inspector General Semiannual Report

                       Table 8: Status of Reports Issued Without Final Action

                     Status of Reports Issued Without Final Action
                                       This Reporting Period
                                                               Decisions
                                                                              Final      Action
                                        # of      Mgt.            IG
             Report Title                                                     Action      Not
                                        Recs.   Decisions      Disagrees
                                                                             Complete   Complete
                                                                 With
    Audit of Citrix Remote Access,
1                                         11          11           0            0          11
    OIG-AR-13-01
    Report on Internal Control for
2                                         3           3            0            1          2
    FY 2012, OIG-AR-13-04
    Management Letter for FY
3   2012 Financial Statements,            2           2            0            0          2
    OIG-ML-13-06
    Evaluation of the Purchase
4                                         6           0            0            0          6
    Card Program, OIG-ER-13-08
            Subtotal Current Period       22          16           0            10         21
                                       Prior Reporting Periods
                                                                 Final        Final
                                                                Action        Action     Action
                                        # of      Mgt.
             Report Title                                      Complete      Complete     Not
                                        Recs.   Decisions
                                                                 Prior         This     Complete
                                                                Periods       Period
    FISMA FY 2004 Performance
1                                         14          14           12           1          1
    Audit, OIG-AR-04-05
    Compliance with Laws and
2                                         2           2            1            0          1
    Regulations, OIG-AR-11-04
    Inspection of Physical Security,
3                                         22          22           8            6          8
    OIG-SP-11-12
    Report on Internal Control for
4                                         12          12           6            4          2
    FY 2011, OIG-AR-12-03
    Audit of Title VII Preliminary
5                                         2           2            1            0          1
    Process, OIG-AR-12-06
    Evaluation of Employee Out-
6   Processing Program,                   11          11           5            3          3
    OIG-ER-12-07
    Evaluation of Modifications to
7                                         8           8            5            2          1
    HTS, OIG-ER-12-08
    Evaluation of Controlling
8                                         6           6            0            0          6
    CBI/BPI, OIG-ER-12-09
    Audit of Software Licensing,
9                                         6           6            0            2          4
    OIG-AR-12-10
               Subtotal Prior Period      83          83           38           18         27



                                                 16
                            Report: October 1, 2012 through March 31, 2013
             U.S. International Trade Commission
                                        Appendix A

Appendix A: Chairman’s Statistical Tables
                           Table A: Reports with Disallowed Costs


  Total Number of Reports and the Dollar Value of Disallowed Costs
                                                            Number
                                                                        Dollar Value of
                     Description                              of
                                                                        Disallowed Costs
                                                            Reports
 Reports issued during the period.                              8              $0
 Reports for which final action had not been taken by
                                                               13              $0
 the commencement of the reporting period.
 Reports on which management decisions were made
                                                                8              $0
 during the reporting period.
 Reports for which final action was taken during the
                                                                8              $0
 reporting period.
     • Dollar value of disallowed costs, recovered                             $0
         by management.
     • Dollar value of disallowed costs written off                            $0
         by management.
 Reports for which no final action has been taken by
                                                               13              $0
 the end of the reporting period.

           Table B: Reports with Recommendations that Funds be Put to Better Use


    Reports with Recommendations that Funds be Put to Better Use
                                                             Number
                                                                          Funds Put to
                     Description                               of
                                                                           Better Use
                                                             Reports
 Reports for which final action had not been taken by the
                                                                13              $0
 commencement of the reporting period.
 Reports on which management decisions were made
                                                                    8           $0
 during the reporting period.
 Reports for which final action was taken during the
                                                                    8           $0
 reporting period including:
     • Dollar value of recommendations that were                                $0
         actually completed.
     • Dollar value of recommendations that
         management has subsequently concluded                                  $0
         should not or could not be completed.
 Reports for which no final action has been taken by the
                                                                13
 end of the reporting period.


                                             A-1

                        Appendix A: Chairman’s Statistical Tables
         U.S. International Trade Commission
                                 Appendix A

          Table C: Prior Year Management Decisions Without Final Action

Prior Year Audit Reports On Which Management Decisions Have Been
             Made but Final Action has Not Been Taken
                                               Funds Put        Reason Final
                              Disallowed
 Audit Report     Date Issued                   to Better      Action has Not
                                Costs
                                                   Use          Been Taken
                                                              Provided in Part II B
OIG-AR-04-05      09/27/2005         $0            $0          of the Chairman’s
                                                                    Message
                                                              Provided in Part II B
OIG-AR-11-04      11/10/2010         $0            $0          of the Chairman’s
                                                                    Message
                                                              Provided in Part II B
OIG-SP-11-12      09/09/2011         $0            $0          of the Chairman’s
                                                                    Message
                                                              Provided in Part II B
OIG-AR-12-03      11/10/2011         $0            $0          of the Chairman’s
                                                                    Message
                                                              Provided in Part II B
OIG-AR-12-06      01/23/2012         $0            $0          of the Chairman’s
                                                                    Message
                                                              Provided in Part II B
OIG-ER-12-07      01/25/2012         $0            $0          of the Chairman’s
                                                                    Message




                                      A-2

                  Appendix A: Chairman’s Statistical Tables
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
